HHS/OIG, Audit -"Review of Alabama's Medicaid Disproportionate Share
Hospital Program,"(A-04-01-02006)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Alabama's Medicaid Disproportionate Share Hospital Program," (A-04-01-02006)
June 30, 2004
Complete
Text of Report is available in PDF format (588 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that Alabama made disproportionate share hospital (DSH) payments that did not comply with the hospital-specific
DSH payment limits mandated by the Social Security Act.  As a result, hospitals participating in the managed care
arrangement were overpaid about $66 million ($46 million Federal share) in fiscal years 1999 and 2000.  In addition
to a financial adjustment for th4e $46 million, we recommended that Alabama calculate DSH limits to include an offset for
all Medicaid enhanced payments received by hospitals and calculate uncompensated care costs annually.  We also recommended
that Alabama establish controls to ensure the reasonableness and allowability of future uncompensated care costs.